.,..

No.19-6

IN TIH
SUPREME COURT OF TIE UNITED STATES
DECEMBER TERM 2019

TIE STATE OF NEW YORK,
Petitioner,
V.

JAIIMARLEY JONES ,
Respondente

On Petition for Writ of Certiorari to the
Supreme Court of the State of New York
Appellate Division, Second Department

RESPONSE T0 PETITION
FOR A WRIT 0F CERTI0RARI

RANDALL D. UNGER
Counsel of Record for Respondent
125-10 Queens Boulevard, Suite 5
(718)614-6496

Kew Gardens, New York 11415

randalldunger@yahoo.com

September 17, 2019

No.19-6

IN TIIE

supREME couRT OF Tlm UNITED sTATEs
DECEMBER TERM 2019
--_.------------------------------------------.-------

TIH STATE OF NEW YORK,
Petitioner,
V.

JAHVIARLEY JONES,
Respondent.
--------------I----------------------------.,,---------

RESPONSE T0 PETITION
FOR A WRIT OF CERTI0RARI
COUNTERSTATEMENT OF
QUHSTI0NS PRESENTED
Whether the Supreme Court of the State of New York, Appellate
Division, Second Judicial Department correctly concluded that the expert testimony

of police officers, which exceeded the permissible scope of such testimony, denied
therespondenthisrighttoafairtrial,andwhetherthatCourtalsocorrectlyconcluded

thatthetestimonyofthoseofflcers,whichcommunicatedtestimonialhearsay,denied
the respondent his rights under the Confrontation Clause.

TABLE 0F CONTENTS
COUNTERSTATEMENT OF QUESTION PRESENTED ......................

TABLE OF AUTHORITIES.

Hm

STATEMENT OF TIE CASE„ ....
REASONS FOR DENYING TIH WRIT .................................................

CONCLUSION..................................................................„........„............

13

TABLE 0F AUTHORITIES
.(`'1S|.i
Crawford v. Washington, S4L U.S. 36 (2004) ..................................... „..

Dt7vz.a v.

Passlm

WczsAz.#gfo77, 547 U.S. 813 (2006) ..............................................

5,11

A4z.cfez.8cz# v. Brycz77f, 562 u.s. 344 (2oi 1) ................................................

A4z.cfez.gr# v. £o#g, 466 u.s. io32 (ig83) ............ „ ...................................

Ofez.o v. C/czr4, _ U.S. _,135 S. Ct. 2173 (2015) ..................................

10

Peep/e v. /7eocz, 25 N.Y.3d 466 (2015) ......................................................

Peop/e 1;. /o7?es, 166 A.D.3d 803
(N.Y. App. Div. 2018), czzxpecz/ denz.ed,
33 N.Y.3d 950 (2019) .........................

U#z.fec7 SfczfeS v. A4e/.I.cz, 545 F.3d 179 (2d Cir. 2008) ................................

Williams v. Illinois, 567 U.S. SO (2012,)

Statutes & Other Authorities
New York Penal Law §

105.15 ..................................................................

Hon. Jalck Nevin, Conviction, Conf rontation, and Crawf ord..
Gang Expert Testimony as Testimonial Hearsay,
34 Seattle u.L. Rev. 857 (2011) .......... „ ..........................................

Hm

5

STATHMFNT OF THF CASE
In a unanimous decision rendered November 14, 2018, the Supreme

CourtoftheStateofNewYork,AppellateDivision,SecondJudicialDepartmentheld
that respondent Jahmarley Jones was entitled to a new trial because his Sixth

Amendment right of confrontation was violated by the admission of out-of-court
testimonial statements elicited from police officers who were involved in the
investigation of his case (Pet. App. 4a-5a). In addition, the Appellate Division held

that Jones' right to a fair trial was violated under New York State law when those
samepoliceofficersactedassummationwitnessesby"interpreting,summarizingand
marshaling the evidence" against him (Pet. App. 6a).

At trial, the prosecution called no eyewitnesses or victims to testify
against Jones. Instead, the prosecution relied primarily upon the "expert" testimony

of Lieutenant Robert Bracero and Detective Adam Georg. Both of those police
officers claimed to have intimate knowledge of the activities of members of the socalled SNOW gang, a street gang that puxportedly operated in the Rochdale Village

section of Queens County, New York.

According to those officers, rival gang

members shot and killed a SNOW Gang member in late March, 2014. Drawing on
knowledge they had obtained from debriefings and interrogations of numerous
arrestedgangmembers,andsuspectingthattherewouldberetaliationforthatkilling,

the police monitored phone calls and Faceoook postings of various SNOW Gang
membersandexplainedtothejuryhowthoseinterceptedcommunicationestablished

howandwhenmembersoftheSNOWgangwouldretaliateagainstthememt)ersof
the rival gang they believed were responsible for that killing.

Subsequently, the

policeobservedJonesandotherreputedSNOWGangmembersmeetinaparkwhere
theyfrequentlycongregated.Thoughnocriminalactivitywasot)servedinthatpark,
the police descended on Jones and others and arrested them on suspicion that they

hadconspiredtomurderrivalgangmembers.Basedonthisevidence,thejuryfound
JonesguiltyofthecrimeofconspiracyintheseconddegreeinviolationofNewYork
Penal Law § 105.15.

REASONS T0 DENY THE WRIT
The prosecution in this case was streamlined to an extraordinary and

dangerous degree. Instead of seeking out and presenting witnesses and physical
evidencetoestablishJones'sguilt,theprosecutionreliedalmostexclusivelyonthe

testimonyof"expert"policewitnesses,oneofwhomwastheofficerinchargeofthe
investigation in this case. That officer and his mentor intexpreted communications

exchangedamongvariousreputedgangmembers;conveyedtothejurythesubstance
of custodial statements by other reputed gang members to t)olster their opinions;

informed the jury about the gang's "history of violence" and the "potential [for]

retaliation" following the killing of one of their own members, and effectively
arranged all of the pieces in the puzzle to create a picture of Jones' guilt. Suffice it

to say, if this Court were to sustain Jones's conviction on the existing record, a
dangerousprecedentwouldbesetwhichcouldpotentiallyunleashprosecutionsbased

solely on the opinions of police officers endowed with the title of "crime experts".

Protection of the Sixth Amendment right of confrontation and the Fourteenth
Amendment due process right to a fair trial requires that the petitioner' s application

for a writ of certiorari be denied.

Moreover, while the petitioner focuses all of his attention on the
Confrontation Clause claim, it is significant to note that the Appellate Division's
decision reversing Jones's conviction was not based on that claim alone. In fact, the

Appellate Division made it clear that while Jones's constitutional right of

confrontation was violated when the trial court permitted the police to convey to the

jury the substance of out-of-court statements made to them by gang members in
custody, his right to a fair trial was also violated by the officers' testimony which

"instruct[ed] the jury on the existence of the facts needed to satisfy the elements of

the charged offense" and thereby ran afoul of New York's "proscription against
police experts acting as summation witnesses". Peep/e v. /o77es, 166 A.D.3d 803
(N.Y.App.Div.2018),czzxpecz/c7e#z.ed,33N.Y.3d950(2018),g"ofz.#gpeop/ev./#ocz,

25 N.Y.3d 466, 475 (2015). Accordingly, even this Court were to conclude that the

Appellate Division erred in its interpretation of the Sixth Amendment right of
confrontation, there is no basis for this Court to second guess New York's rule
regarding the permissible scope of expert testimony which constituted a separate and

independent state ground for the challenged decision. As Justice O'Connor stated in
A4lz.cfoz.gr77 v. I,o#g, 463 U.S.1032 (1983), "Respect for the independence of state

courts, as well as avoidance of rendering advisory opinions, have been the

comerstones of this Court's refusal to decide cases where there is an adequate and
independent state ground". Jd. at 1040. In short, in this case, there is simply no basis

for concluding that New York State precedent regarding the scope of expert
testimony involves an important question of federal law that would justify this
Court's review.

EvenifthisCourtweretodisregardtheseparateandindependentground
that formed the basis of the Appellate Division's decision reversing Jones's

conviction, which it should not, review of that court' s Confrontation Clause claim is
neither necessary nor appropriate. In Crczw/ord v. Wczs¢z.77gro#, 541 U.S. 36 (2004),

this Court clearly held that out-of-court statements of a person who does not appear

as a witness at trial that are "testimonial" in nature may not be admitted against an
accused to establish the truth of what was stated unless (a) the declarant was

unavailable to testify at trial, and @) the accused was afforded a prior opportunity to
crossrexamine the declarant on the statement. Jd. at 60-64. Although this Court did

not precisely define the term lestimonial", it did provide specific exainples which

included prior testimony at trial or grand jury, affidavits, depositions and custodial
examinations. H. at 51-52 (emphasis supplied). And in Da!w.s v. Wcrsfez.#gro#, 547

U.S . 813 (2006), this Court enunciated standards for determining whether statements

obtained by police interrogations were testimonial, holding that statements given to
"meet an ongoing emergency" were non-testimonial, while statements given to
"establish past events potentially relevant to later ... prosecution" would be

considered testimonial in nature. Jd. at 822.

Vigorous investigation of the criminal activities of street gang members
by law enforcement officials is desirable and to be encouraged. However, the use of
suchofficialsasexpertwitnessesintheareaofstreetgangactivitiesposesespecially

high risks that their testimony will infringe on the right of confrontation. Indeed, it

has been said that such testimony may cause a "collision course" with the right of
confrontation. See Hon. Jack Nevin, Co73i;Jcfrorty Co#;o77/czfz.o#, cwear Crczw/ord.. Gang

Expert Testimony as Testimonial Hearsay, 34 Sealttle U.L. BLev. 857 , 878-79 (2011).
As the Second Circuit described the problem in I/;7z./ec7Sfcz/es v. A4le/.z.cz, 545 F.3d 179

(2d Cir. 2008): "An increasingly thinning line separates the legitimate use of an

officer expert to translate esoteric terminology or to explicate an organization's
hierarchical structure from the illegitimate and impermissible substitution of expert

opinion for factual evidence .... As the officer's puxported expertise narrows from
`organized crime' to `this particular gang' ... the officer's testimony becomes more

central to the case, more corroborative of the fact witnesses, and thus more like a

summary of the facts than an aid to understanding them.

The officer expert

transforms into the hub of the case, displacing the jury by connecting and combining
all other testimony and physical evidence into a coherent, discemible, intemally

consistent picture of the defendant's guilt .... The Government carmot satisfy its

burden of proof by taking the easy route of calling an `expert' whose expertise
happens to be the defendant." Jd. at 190-91.

Here, the prosecution took the "easy route" at Jones's trial. Two police

offlcers provided virtually all of the evidence establishing Jones's complicity in the

charged conspiracy. Lieutenant Bracero testified that he leaned of the history and
activities of the SNOW Gang by interviewing approximately 50 SNOW Gang
members "upon completion of their arrests" and would "debrief the individuals and

we would gather intelligence that way where we could find out, we become aware of

their ranking structure, names for them, crimes they have committed, the type of
crimes that they are associated with, and the rank structure of those people" and that

"through those debriefings that we mentioned earlier. We found out by speaking to

several of the individuals what the, what started the gang, who were some of the
original members" (TT 916-917, 922). Likewise, when asked how he had learned to

interpret slang terms and hand signals used by SNOW Gang members, he asserted

that he learned the meaning of those terms and signals as a result of debriefings and
interviews of unidentifled gang members (TT 957,1117-1118). Thus, Lieutenant

Bracero made it clear that a substantial portion of the infomation he had acquired
about the SNOW Gang was though custodial questioning of individuals who had

been arrested and who had provided him with a "vast" amount of information
regarding the activities of that gang (TT 1113-1114).

And since out-of-court

statementselicitedthroughcustodialinterrogationswasoneoftheenumeratedclasses

of evidence that this Court classified as testimonial in Cram//ore, it can scarcely be

doubted that Lieutenant Bracero' s testimony regarding the SNOW Gang's criminal
activities and customs violated Jones' rights under the Confrontation Clause.

If anything, the testimony offered by Detective Georg was even more
improper than the testimony of Lieutenant Bracero. Notably, Detective Georg was
the lead investigator in this case and was presented as both a fact witness and an

expert witness regarding the SNOW Gang. In fact, Detective Georg was intimately
involved in the investigation of this case since he was the officer who studied and

intelpretedtheFacebookpostingsofJonesandotherreputedSNOWGangmembers;
concluded that Jones and others were intent on retaliating against the individuals

suspected of shooting and killing one of their own members; arranged a stakeout at
the park where Jones and others assembled, and then pursued and aITested Jones

when he exited the park. Indeed, a fair review of the record demonstrates that without
Detective Georg's testimony, the prosecution could not have secured an indictment
against Jones, let alone a conviction.

Moreover, Detective Georg used many of the same investigative
techniques as Lieutenant Bracero had. He testified that he "conducted debriefings of

resident SNOW Gang members and other gang members" and "interviewed
confidential informants" (TT 1589, 1592, 1597, 1604-1607, 1619-1620).

He

estimated that fewer than five confidential informants had supplied him with
information about the SNOW Gang and that in 70 or 80 custodial debriefings he

conducted, he had obtained information about that gang from at least 50 reputed
urmamed SNOW Gang members who had been arrested (TT 1623-1624). Thus, like
Lieutenant Bracero, and the detective in A4:e/.I.cz, much of Det. Georg's expert

testimony regarding the SNOW Gang was derived from out-of-court custodial
statements which clearly fell within the "core class" of testimonial hearsay forbidden

in Crowf ;ord.

Nevertheless, in asserting that the testimony of the detective and the

lieutenant regarding the criminal activities committed by the SNOW Gang and
Jones'sparticipationinthoseactivitieswasproper,thepetitionercontendsthateven

if that testimony was based on information derived from custodial inteITogations of
urmamed and uncalled arrestees, it did not violate Jones's right of confrontation

becausesuchinformationwasobtainedpriortothedatethechargedconspiracybegan

and because the primary purpose of obtaining that infomation was not for use in a
prosecution against Jones. Thus, the petitioner contends, the challenged testimony

cannot be considered testimonial in nature. But this argument is flawed for several
reasons.

First, the prosecution did not confine itself to eliciting evidence of the

SNOW Gang's criminal activities during the relatively short time period of the

conspiracy charged in the indictment. In fact, over repeated defense objections, the
prosecution introduced a myriad of evidence of criminal conduct attributed to

members of the SNOW Gang which occurred long before the date the charged
conspiracybegan.Thus,thecontentionthattheout-of-courtstatementsderivedfrom
custodial interrogations to which the officers testified carmot be considered
testimonialbecausetheywereobtainedpriortothedatethechargedconspiracybegan
is misleading, at best.

Second, the petitioner's

attempts to

characterize the

officers'

interrogations of reputed gang members whom they had arrested as cordial and
informal(Pet.atl2-13),andthereforenon-testimonial,areunconvincing.Regardless

of whether the police offered their detainees food or cigarettes, or simply provided

them with an opportunity to leave the unpleasant atmosphere of a holding cell
temporarily, the statements elicited by the officers from those individuals clearly fell
withinthe"coreclass"oftestimonialhearsaysincetheyweretheproductofcustodial
interrogation. See Crczw/ord, 541 U.S. at 53, n.4 (a statement "knowingly given in
responsetostructuredpolicequestioning,qualifiesunderanyconceivabledefinition"

of interrogation). In short, while Lieutenant Bracero and Detective Georg may have

believedthattheirstationhouseinterrogationsofarrestedgangmemberswerecordial

and infomal, it is doubtful that the subjects of those interrogations shared the same
belief. Under the circumstances, the petitioner's reliance on the decision in Ofr!.o v.
C/c!rk, _ U.S. _,135 S. Ct. 2173, 2182 (2015) (holding that statements made to

individuals who are not law enforcement officials who are "not charged with
uncovering and prosecuting criminal behavior", will generally be considered nontestimonial), is misplaced.

Third, the petitioner's contention that the "common thread" (Pet. at 11 )

inallofthisCourt'srecentdecisionsontheConfrontationClause-thatincriminatory

10

out-of-court statements are not testimonial where there is no known suspect at the

time the statements are made - is a distorted interpretation of those decisions and
does not withstand scrutiny.

In actuality, this Court has clearly stated that

"[s]tatements are testimonial when the circumstances objectively indicate that there

is no ... ongoing emergency, and that the primary purpose of the interrogation is to
establish or prove past events potentially relevant to later criminal prosecution."
Dczvz.s v. Wczsfez.77gro77, 547 U.S. at 822. Moreover, this Court's subsequent decisions

have reiterated that the "primary purpose" test is the guiding principle in determining
whether an out-of-court statement is testimonial or not. See, e.g. Mz.cfez.gcz77 v. Brya#/,
562 U.S. 344, 358 (2011) (a statement is testimonial where its primary purpose is
``creating an out-of-court substitute for trial testimony"); WJ.//I.czms v. I//z.;7oz.s, 567 U.S .

50, 84 (2012) ("the primary purpose of the Cellmark report, viewed objectively, was

not to accuse petitioner or to create evidence for use at trial. When the ISP lab sent

the sample to Cellmark, its primary purpose was to catch a dangerous rapist who was
still at large").

While it is true that in Wrz.//I.czrms, the defendant was not yet in custody

when the DNA profile was prepared, there is no basis for concluding that it was that

factor that formed the basis of the decision in that case, as the respondent seems to
suggest. In fact, the plurality in Wrz.//I.oms held that the testimony referencing the

11

DNA profile report was not testimonial because it was not elicited to establish the
truth of the matter asserted in the report. In contrast, it is clear that in this case, the

testimony regarding the SNOW Gang offered by Lieutenant Bracero and Detective
Georg was clearly elicited for the truth of their assertions.

In sum, the reversal ofJones' s conviction in the state court was based on

the admission of expert testimony that exceeded the permissible bounds that New
York State law permits for such testimony. Accordingly, since there is an adequate

and independent state ground for the state court's decision, there is no basis for this
Courttoexerciseitsjurisdictionandreviewthatdecision.Furthemore,thetestimony

of the police experts regarding the criminal activities of the SNOW Gang

communicated to the jury out-of-court testimonial statements obtained during
custodial interrogations for the primary purpose of gathering evidence against Jones
and his associates and using such evidence to support prosecution. Accordingly, the

admission of that testimony violated Jones's constitutional right of confrontation.

The petition for a writ of certiorari should therefore be denied.

12

CONCLUSION
This Court should deny the petition for a writ of certiorari to the
Supreme Court of the State of New York, Appellate Division, Second Judicial
Department.
Respectfully submitted,

gr i,-cJfRANDALL D. UNGER
Counsel of Record for Respondent
125-10 Queens Boulevard, Suite 5
Kew Gardens, New York 1 1415
(718) 614-6496

randalldunger@yahoo.com

Dated:

September I 7, 2019

13

